                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




              Taxpayer Complaints to Hotline Help SIGTARP
           Fight Fraud and Highlight Continuing Problems with
                        TARP Housing Programs




Special Inspector General for the Troubled Asset Relief Program
                                                          January 29, 2014
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014              3




INTRODUCTIONi
As a criminal law enforcement agency, SIGTARP created its Hotline in 2009, soon                                                                   The SIGTARP Hotline can receive
after SIGTARP’s inception, as a crime tip hotline for the public to call SIGTARP                                                                  information anonymously. SIGTARP
and offer leads on criminal investigations and suspected criminal activity related                                                                honors all applicable whistleblower
to the Troubled Asset Relief Program (“TARP”). Because SIGTARP honors all                                                                         protections and will provide
                                                                                                                                                  confidentiality to the fullest extent
applicable whistleblower protections and provides confidentiality to the fullest
                                                                                                                                                  possible. SIGTARP urges anyone aware
extent possible, members of the public can maintain their anonymity when they
                                                                                                                                                  of fraud, waste, or abuse involving TARP
report information that could be vital to stopping bailout-related crime. SIGTARP
                                                                                                                                                  programs or funds, whether it involves
has received and reviewed 33,334 Hotline complaints as of December 31, 2013.                                                                      the Federal Government, state and local
    SIGTARP has investigated a range of criminal activities arising from Hotline                                                                  entities, private firms, or individuals, to
tips, including fraud schemes in banking, housing, and securities trading TARP                                                                    contact its representatives at 877-SIG-
programs. Although for confidentiality reasons, SIGTARP does not normally                                                                         2009 or www.sigtarp.gov.
discuss when a tip results in a criminal investigation, in an effort to educate
homeowners about a particular type of scam in order to prevent further
victimization, and to help homeowners know when to call SIGTARP’s Hotline,
SIGTARP is reporting that it has received complaints concerning suspected
mortgage modification scams. These are fraudulent schemes that take advantage
of homeowners struggling to keep their homes who want to apply to lower their
mortgage payments through TARP’s signature housing program, Home Affordable
Modification Program (“HAMP”). Homeowner complaints to SIGTARP about
these scams are vital to help SIGTARP identify and stop these scams. SIGTARP
has been successful in identifying many of these criminals, putting them out of
business, and actively supporting prosecutions and convictions, including court
orders to repay victims. Of the 174 individuals charged with crimes as a result of
a SIGTARP investigation, 66 of these were charged with mortgage modification
fraud. Courts have already convicted 38 of the 66 charged. Twenty-two of
those defendants convicted of the mortgage modification scams investigated by
SIGTARP were sentenced to prison, six were sentenced to probation, and 10 await
sentencing. Hotline tips from the public can significantly help SIGTARP combat
this type of heinous crime.
    Combating mortgage modification scams requires a coordinated effort among
Federal and state agencies. As the co-chair of the President’s Financial Fraud
Enforcement Task Force Rescue Fraud Working Group, SIGTARP has taken the
lead in coordinating investigations and training other agencies. SIGTARP leverages
resources by partnering with other law enforcement agencies; refers relevant
complaints to the Federal Trade Commission (“FTC”), which tracks these scams
in a national database; works with regulators to ban convicted defendants (22 to
date) from their industries; and has spearheaded preventive efforts to educate
homeowners to help them avoid being victims in the first place. When a Hotline
complaint does not rise to the level of a tip alleging crime, but rather describes a
problem or issue the party is experiencing within a TARP program, it is referred to


i The Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) is issuing this report under the
 Emergency Economic Stabilization Act. The report is based on SIGTARP internal information. It is not an audit or evaluation under the
 Inspector General Act of 1978 as amended.
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           Treasury or another appropriate agency so that those agencies that are set up to
                                           provide individual relief or assistance or have oversight of the TARP program can
                                           take action on the complaint. For example, if a homeowner reports problems with
                                           a servicer approving a HAMP mortgage modification, SIGTARP would refer the
                                           complaint to Treasury, which conducts oversight of HAMP servicers. In addition
                                           to these referrals, SIGTARP has found these complaints to be a valuable source
                                           of facts to inform SIGTARP audits and to develop recommendations that could
                                           prevent fraud, waste, and abuse related to TARP and to improve the effectiveness
                                           or efficiency of TARP programs.
                                               Complaints about TARP housing programs dominate SIGTARP’s Hotline.
                                           These complaints may not rise to the level of allegations of criminal conduct, but
                                           they do provide individual examples of American taxpayers, especially struggling
                                           homeowners, who continue to feel the ongoing effects of the financial crisis.
                                           Americans struggling to hold on to their homes while pursuing help through TARP
                                           housing programs have contacted the SIGTARP Hotline. The legacy of TARP
                                           includes:

                                           •	 Complaints to SIGTARP alleging improper foreclosures, and difficulties with
                                              short sales that result in foreclosures, continue even while a homeowner is
                                              pursuing help through TARP housing programs.
                                           •	 Individual homeowners continue to tell SIGTARP that that they are unable to
                                              gain admittance into a TARP program because of some problem on the part of
                                              their mortgage servicer.
                                           •	 Complaints regarding difficulty in communication with servicers regarding
                                              HAMP and regarding servicer mishandling of HAMP application documents
                                              persist, despite requirements that homeowners be assigned a servicer single
                                              point of contact.

                                               Homeowner complaints to SIGTARP’s Hotline evidence that some distressed
                                           homeowners have not received the help they need under TARP’s housing programs,
                                           including HAMP, which, according to Treasury, was intended “to help as many
                                           as three to four million financially struggling homeowners avoid foreclosure
                                           by modifying loans to a level” that is affordable and sustainable.1 Securing a
                                           permanent mortgage modification under HAMP is one of the last options available
                                           to many homeowners trying to save their home. However, with only 894,410 active
                                           permanent HAMP Tier 1 modifications as of December 31, 2013, HAMP is falling
                                           far short of the three to four million once predicted. SIGTARP’s analysis of Hotline
                                           complaints reveals that the TARP programs that were supposed to help struggling
                                           homeowners have instead frustrated and angered individual homeowners who
                                           looked to the Government for help from TARP, some of whom lost their homes to
                                           foreclosure.
                                               Treasury’s recent decision to extend the deadline for homeowners to apply
                                           for HAMP through December 31, 2015, presents an opportunity for Treasury
                                           to improve efficiency and effectiveness of HAMP through its oversight of the
                                           mortgage servicers. Dating back to the earliest days of HAMP, SIGTARP has
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   5




made numerous recommendations to Treasury that are designed to improve
servicer performance in HAMP, but Treasury has not fully implemented many
of these recommendations. Treasury should fully implement SIGTARP’s servicer
performance recommendations and by not doing so is allowing poor servicer
performance to continue to hurt homeowners who are struggling to stay in their
homes.




HOTLINE TIPS HELP SIGTARP FIGHT CRIME
SIGTARP’s Hotline has provided SIGTARP with valuable tips from the public
that have led to SIGTARP initiating criminal investigations. SIGTARP normally
maintains the confidentiality of the identity of callers and of criminal actions that
may result from a Hotline complaint. However, to educate homeowners, SIGTARP
is revealing the circumstances of certain mortgage modification complaints to
prevent the perpetration of future fraud. Typically, a mortgage modification scam
will have one or more red flags: the con artists (1) will claim that they can help the
homeowner get a mortgage modification because they have an expertise or that
they are affiliated with HAMP or another Government housing program, and may
even go so far as to display a Government seal; (2) will tell the homeowner to stop
paying the mortgage servicer and stop all contact with the mortgage servicer; (3)
will claim a high success rate of clients who have received a mortgage modification;
(4) will charge an upfront fee whereas in many states an upfront fee is illegal;
and (5) will offer a money-back guarantee. Although the majority of SIGTARP’s
investigative activity remains confidential, there have been some significant public
developments related to investigations assisted by Hotline tips that could help
inform the public about when they should call SIGTARP’s Hotline:

•	 Home Owners Protection Economics, Inc.: SIGTARP received several
   separate calls to SIGTARP’s Hotline from homeowners who reported mortgage
   modification schemes by a company called Home Owners Protection
   Economics, Inc., (“HOPE”). SIGTARP’s subsequent investigation into the
   company included the Hotline complaints in support of the investigation.
   HOPE falsely misrepresented to homeowners that, with HOPE’s assistance,
   the homeowners were virtually guaranteed to receive a loan modification under
   HAMP. HOPE lulled the distressed homeowners by telling them that HOPE
   had an almost perfect record of obtaining mortgage modifications, including
   under HAMP. Using these misrepresentations, HOPE induced thousands of
   financially distressed homeowners to pay up-front fees of up to $900 each in
   exchange for home loan modifications, modification services, and “software
   licenses.” However, HOPE did not help homeowners obtain a mortgage
   modification. In exchange for the fee, HOPE sent homeowners “software” that
   was nearly identical to the HAMP application provided free of charge by the
   U.S. Government. The HOPE customers had no advantage in the application
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              process, and, in fact, most of their applications were denied. The scams
                                              perpetrated by these criminals victimized thousands of struggling homeowners
                                              who lost more than $4 million in fees to HOPE.
                                                  As a result of the investigation by SIGTARP and its law enforcement
                                              partners, on August 9, 2011, SIGTARP agents arrested four Florida men
                                              connected with the fraudulent HOPE schemes, concurrent with a 20-count
                                              indictment filed in Federal court in Boston, charging Christopher S. Godfrey,
                                              Dennis Fischer, Vernell Burris, Jr., and Brian M. Kelly with conspiracy, wire
                                              fraud, mail fraud, and misuse of a Government seal. On November 28, 2012,
                                              Burris pled guilty to conspiracy and wire fraud for his role in the scheme.
                                              On May 2, 2013, Kelly pled guilty to conspiracy, nine counts of wire fraud,
                                              and nine counts of mail fraud for his role in the scheme. On November 14,
                                              2013, a Federal jury in Massachusetts convicted Godfrey and Fischer of
                                              defrauding homeowners in the home loan modification scam. Both Godfrey and
                                              Fischer were convicted of conspiracy, wire fraud, mail fraud, and misuse of a
                                              Government seal. All four defendants are scheduled to be sentenced in February
                                              2014 and face a maximum sentence of up to 20 years in prison on each count,
                                              a fine, and restitution. [U.S. v. Christopher S. Godfrey, et al., 11-CR-10279 (D.
                                              Mass.)]
                                           •	 Shutdown of Internet marketing of websites suspected of mortgage
                                              modification scams: While interviewing victims of suspected mortgage
                                              modification scams, SIGTARP learned that many homeowners fell prey to these
                                              scams after being enticed by Internet advertisements and web banners that
                                              promised help in lowering mortgage payments. The Internet ads increased the
                                              scope and scale of these frauds. SIGTARP took a proactive approach to stop
                                              homeowners from being victimized in the first place and to deter those who may
                                              be contemplating or starting these scams. In November 2011, SIGTARP worked
                                              with Google, Yahoo, and Bing so that these search engines suspended Internet
                                              advertising relationships with more than 900 web advertisers and agents
                                              associated with advertisers that used the hallmarks of these fraud scams.
                                           •	 21st Century Real Estate Investment Corp.: On August 18, 2009, a
                                              homeowner from Southern California called SIGTARP’s Hotline to report
                                              that he had attempted to modify his mortgage through a company he heard
                                              advertised on the radio, 21st Century Real Estate Investment Corp. (“21st
                                              Century”). The company allegedly instructed him to make payments directly
                                              to the company and to not make monthly payments to his mortgage servicer.
                                              SIGTARP initiated an investigation that uncovered allegations that mortgage
                                              modification scams run out of 21st Century and related companies had
                                              victimized more than 4,000 struggling homeowners who lost at least $7 million
                                              in fees, and many of the victims lost their homes to foreclosure as well. The
                                              investigation by SIGTARP and its law enforcement partners resulted in the
                                              September 2012 indictment of 11 individuals who had been charged by a
                                              Federal grand jury in Riverside, California, with allegedly running a massive
                                              fraudulent mortgage modification scheme through 21st Century and several
                                              related companies. According to the indictment, during an 18-month period
                                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   7




   that began in June 2008, under the leadership of Andrea Ramirez, 21st Century
   “defrauded financially distressed homeowners by making false promises and
   guarantees regarding 21st Century’s ability to negotiate loan modifications
   from the homeowners’ mortgage lenders, falsely representing that 21st Century
   was operating a loan modification program sponsored by the United States
   government, instructing homeowners to cease communication with their
   mortgage lenders and to cease making their mortgage payments.” Ramirez and
   her 10 co-conspirators face trial in August 2014, each charged with nine felony
   counts: five counts of mail fraud, three counts of wire fraud, and one count of
   conspiracy.ii [U.S. v. Andrea R. Ramirez, et al., 12-CR-0065 (C.D. Cal.)]
•	 Nations Housing Modification Center: On March 20, 2009, a homeowner
   contacted SIGTARP’s Hotline about a seemingly suspicious letter he received
   in the mail. The letter was a solicitation to homeowners who were delinquent
   on mortgage payments; it purported to be the result of a bill passed by
   Congress. A SIGTARP investigation found that, using the names “Nations
   Housing Modification Center” (“NHMC”) and “Federal Housing Modification
   Department,” the conspirators used false and fraudulent statements and
   representations to induce customers to pay advance fees of $2,500 to $3,000
   each to purchase loan-modification services from NHMC. Included among the
   misrepresentations of the scam was that NHMC was affiliated with the Federal
   Government or HAMP and that it was located on Capitol Hill in Washington,
   DC. The fraud grossed at least $900,000 from more than 300 homeowners.
   Michael Trap, Roger Jones, and Glenn Rosofsky pled guilty in Federal court in
   San Diego, California, to their involvement in the fraudulent loan-modification
   scheme. The three have since been sentenced to 30, 33, and 63 months in
   Federal prison, respectively, as well as subsequent supervised release of three
   years, and were ordered to pay a total of $456,749 in restitution. [U.S. v.
   Michael Trap, 10-CR-00913 (S.D. Cal.); U.S. v. Roger T. Jones, 10-CR-05046
   (S.D. Cal.); U.S. v. Glenn S. Rosofsky, 10-CR-00978 (S.D. Cal.)]
•	 Federal Loan Modification Law Center: On May 6, 2009, a homeowner
   contacted SIGTARP’s Hotline with a tip that the Federal Loan Modification
   Law Center (“FLMLC”) was engaged in the fraudulent use of the HAMP
   program to fleece homeowners from $995 to $3,400 for loan modification
   services that were never performed. It was the first of a number of complaints
   that SIGTARP received about the company. SIGTARP teamed with the
   Federal Trade Commission (“FTC”) to investigate FLMLC as well as affiliated
   companies and individuals operating the companies. The investigation found
   that the company lured in struggling homeowners with promises of mortgage
   modifications in exchange for upfront fees of $1,000 to $4,000. In several
   instances the company falsely claimed that it was part of or affiliated with
   the Federal Government. After taking the upfront fees from homeowners,
   the company was not reachable by the homeowners, and little or no contact
   was actually made with the servicers of the mortgages. In July 2010, the

ii Criminal charges are not evidence of guilt. A defendant is presumed innocent until proven guilty.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              FTC settled with FLMLC and others for charging homeowners upfront
                                              fees and falsely claiming that they could get homeowners’ mortgage loans
                                              modified. The order imposed an $11.5 million judgment. In December 2010,
                                              a Federal court in Santa Ana, California, issued a final judgment and order for
                                              permanent injunction against one more individual, Boaz Minitzer, for similar
                                              fraudulent conduct. The civil judgment ordered $10.4 million in restitution and
                                              permanently prohibits everyone involved with the company from advertising
                                              or selling mortgage modification and foreclosure relief services. Any money
                                              collected to satisfy the judgment was to be paid to injured consumers. [Federal
                                              Trade Commission v. Federal Loan Modification Law Center LLP, et al., 09-CV-
                                              401 (C.D. Cal.)]




                                           GRIEVANCES RELATED TO TARP HOUSING
                                           PROGRAMS DOMINATE COMPLAINTS TO SIGTARP
                                           Complaints about TARP housing programs, particularly HAMP, dominate Hotline
                                           complaints to SIGTARP. Homeowners contacted SIGTARP to allege mistreatment
                                           by mortgage servicers in the following categories: access to TARP housing
                                           programs; lack of communication or misplaced application documents by servicers;
                                           foreclosures and short sales; and trial modification problems including extended
                                           trials, payment issues, and negative credit reporting. Some people who contacted
                                           SIGTARP had multiple related complaints.
                                               Homeowners have reported problems getting into the HAMP program, where
                                           callers said that they believed servicers prevented them from getting modifications
                                           for which they believed they were eligible. These included cases where callers told
                                           SIGTARP that their mortgage servicer did not properly process their application, or
                                           did not properly calculate their monthly income. For struggling homeowners, the
                                           Government-created housing programs are a chance for them to save their homes.
                                           Frustrated homeowners expressed anger to SIGTARP over the possibility of losing
                                           their homes as a result of issues with mortgage servicers, when these programs exist
                                           to help the homeowners.
                                               Homeowners also reported to SIGTARP that their mortgage servicer was not
                                           communicating with them or was providing inaccurate or contradictory information
                                           about their HAMP mortgage modification status, or that their mortgage servicer
                                           had lost or misplaced documents related to their HAMP mortgage modification
                                           application. Misplaced documents and lack of communication from servicers add
                                           to the frustration and difficulty of people who are trying to save their homes.
                                               Homeowners reported to SIGTARP that they had lost their home to foreclosure
                                           even while applying for a HAMP mortgage modification or applying to participate
                                           in a TARP short-sale program. Homeowners report to SIGTARP that while they are
                                           attempting to save their homes by applying to HAMP, they have encountered delays
                                           in their application process, and mortgage servicers have simultaneously initiated
                                           foreclosure proceedings. Other homeowners are attempting to participate in the
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   9




TARP housing program to facilitate short sales, but report finding their mortgage
servicers uncooperative or incompetent in administering their applications for this
program.
    Homeowners also reported to SIGTARP issues relating to HAMP trial
modifications, including extended trial periods, payment issues, and negative credit
reporting. When a homeowner begins a trial period in HAMP but fails to obtain a
permanent modification, he can find himself in even worse condition than when
he began the HAMP application process. That is because when a homeowner
is cancelled out of a HAMP trial modification, he is left with the original terms
of the mortgage and is responsible for making up the difference between the
original monthly mortgage payment and any HAMP modified payment that he had
made during the trial period. In some cases this results in a big balloon payment.
Additionally, servicers can also charge late fees on principal and interest that was
not paid during the HAMP trial modification. In the worst case scenario, the
homeowner can lose his home to foreclosure.




COMPLAINTS ABOUT FORECLOSURES CONTINUE
Homeowners continue to make complaints to SIGTARP regarding short sales
or foreclosures. The following are examples of complaints homeowners made to
SIGTARP. In August 2012, a man from Arizona contacted SIGTARP to report that
his mortgage servicer misrepresented his income in the review of his application for
TARP’s Home Affordable Foreclosure Alternatives (“HAFA”) program, thus denying
him the opportunity to participate in the program with a short sale of his house. He
alleged that the servicer refused to explain the discrepancy, citing the proximity of
an upcoming scheduled foreclosure date, even though the forms with the correct
proof of income were submitted much earlier. In another instance, in April 2013,
a man from Northern California contacted SIGTARP to report that his mortgage
servicer allegedly inflated the price of his house when it was set for a short sale so
that the company could foreclose on the property instead. A foreclosure can hurt
a homeowner’s credit rating more than a short sale would, and it also prevents the
homeowner from receiving incentives under HAFA.
    One common type of complaint to SIGTARP regarding foreclosures is what
is known as dual tracking—that is, that servicers begin foreclosure proceedings
against a homeowner at the same time that the homeowner is attempting to
save that house through a HAMP modification. Treasury prohibits dual tracking.
Often, a homeowner’s application for a HAMP modification has been delayed
by the servicer due to circumstances such as misplaced documents or backlogs
in processing. While the homeowner is trying to avail himself of TARP programs
that the Government set up to help him save his home, the servicer nonetheless
continues its foreclosure process, even though the servicer should be aware that
the homeowner has applied for HAMP. If the foreclosure process moves more
quickly than the servicer review of the HAMP modification (which often is
reviewed in a separate department than foreclosures), the homeowner can lose his
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            home before he is ever fully reviewed for a HAMP modification.
                                                Complaints about dual tracking by servicers have surfaced since the earliest
                                            days of HAMP, and recent calls to SIGTARP show that this serious problem
                                            continues. For example, in July 2010, a homeowner from Southern California
                                            contacted SIGTARP to report that she had applied for a HAMP modification and
                                            was awaiting final income verification. The caller told SIGTARP that there was a
                                            delay in processing the HAMP modification due to a backlog at the servicer, and
                                            in that time the bank moved to foreclose on and sell the house. Now, years later,
                                            SIGTARP continues to receive similar complaints. In July 2012, a woman from
                                            Ohio contacted SIGTARP to report that even though she was making timely trial
                                            modification payments, her servicer had initiated foreclosure proceedings. In
                                            December 2012, a 76-year-old woman from Illinois called SIGTARP to say that
                                            she had spent six months applying for a HAMP modification from one servicer,
                                            and then her mortgage was transferred to a new servicer that immediately sent
                                            notice that it was beginning foreclosure proceedings. Also, in December 2012, a
                                            woman from Southern California contacted SIGTARP to say that she had been
                                            participating in a trial modification and making timely payments, but that she
                                            had received a letter from her servicer stating that it had initiated foreclosure
                                            proceedings. In January 2013, a man from Florida contacted SIGTARP to report
                                            that he had repeatedly filed application documents with his servicer and that
                                            the servicer kept misplacing them. Sometimes the servicer would later find the
                                            documents after they had expired and the homeowner would have to send in
                                            the application documents again. Ultimately, the bank filed to foreclose on the
                                            homeowner’s home while he was still in the process of re-filing documents that the
                                            servicer had lost or had allowed to expire. In July 2013, a woman from Southern
                                            California contacted SIGTARP to report that while she was in the process
                                            of applying for a loan modification, her mortgage servicer kept changing and
                                            delaying the application process, and that at the same time she was approved for a
                                            modification she also received a notice of foreclosure. Also in July 2013, a woman
                                            from Florida contacted SIGTARP to report that she had been making timely trial
                                            modification payments for eight months when her loan was sold to a new servicer
                                            and that the new servicer started foreclosure proceedings. In October 2013, a
                                            man from Virginia contacted SIGTARP to report that he had turned in a HAMP
                                            modification package in January 2013, but it was not reviewed by his servicer until
                                            February 2013 and the servicer did not begin the processing of the application until
                                            September 2013. In the meantime, the servicer began foreclosure proceedings
                                            against him.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   11




COMPLAINTS ABOUT SERVICERS PERSIST
Communication Problems Continue Despite Single Point of
Contact Requirement
Homeowner calls to SIGTARP about miscommunication and lack of
communication, or servicers losing and misplacing documents, continue to persist.
When HAMP was introduced, SIGTARP reported on homeowner complaints
related to miscommunication or lack of communication by the servicer. After a
request by certain members of Congress, Treasury instituted a rule in May 2011
that servicers establish a single point of contact—a single individual responsible
for managing a borrower’s HAMP application process and communicating with
the borrower. However, despite this rule, SIGTARP’s Hotline has continued to
receive homeowner complaints about servicers relating to single point of contact
issues. In the period from the implementation of the single point of contact rule
through December 31, 2013, 143 homeowners who had applied for a HAMP
mortgage modification reported to SIGTARP that they had not even been assigned
a functional single point of contact. For example, a woman from Arizona contacted
SIGTARP in January 2013 to report that she had been assigned eight different
single points of contact and while she was being shuffled around to different
single points of contact her application documents had gone missing. She reported
that most of the servicer representatives had been unresponsive and one of them
actually yelled at her over the phone when she was finally able to get in touch
with him. A man from Southern California contacted SIGTARP in March 2013
to report that his servicer had lost his modification application documents and
had sent a series of conflicting letters, and that he was currently being foreclosed
upon without explanation. He reported that he had been assigned 12 single
points of contact in the previous nine months. A woman from Texas contacted
SIGTARP in April 2013 to report a lack of communication from her servicer as
she was applying for a HAMP modification. She reported that the single point of
contact assigned to her never answered the phone or kept phone appointments.
When she requested that the servicer reassign her a new single point of contact,
according to the homeowner, the servicer refused. In December 2013, a woman
from Nevada contacted SIGTARP to report that in addition to miscommunication
from her mortgage servicer over the start date of a trial modification, the servicer
kept changing her single point of contact month after month, thus adding to the
miscommunication.

Homeowners Continue to Report HAMP Access and Trial
Modification Issues
Homeowner complaints to SIGTARP also persist about servicer errors in the
HAMP application process and servicer errors related to trial modifications.
These homeowners contact SIGTARP to report that they believe they meet
HAMP requirements, but are not being admitted into the program due to alleged
servicer error. For example, in August 2010, a struggling homeowner in California
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            contacted SIGTARP to report that the servicer of his mortgage had inflated his
                                            gross income in a HAMP modification application, making him ineligible for a
                                            HAMP modification, but the servicer refused to let the homeowner know how that
                                            figure had been calculated, even though this is a basic right of applicants under
                                            HAMP rules. Years later, homeowners continue to make similar complaints to
                                            SIGTARP. For example, a woman from Kansas contacted SIGTARP in January
                                            2013 to report that after she made five trial modification payments, the servicer
                                            of her mortgage denied her modification even though there was no change in her
                                            circumstances, and the servicer provided no rationale for why she was suddenly
                                            ineligible. A woman from Northern California contacted SIGTARP in May 2013 to
                                            report that she had made three HAMP trial payments, asserting that she has proof
                                            of timely payment, but was rejected by her servicer for a permanent modification
                                            because the servicer claimed she had made late payments. In July 2013, a man
                                            from Florida contacted SIGTARP to report that after the servicer of his mortgage
                                            prequalified his loan for a HAMP modification and he completed the HAMP
                                            modification loan application, the servicer of his loan offered him a less favorable
                                            non-HAMP modification.
                                                Additionally, SIGTARP continues to receive complaints about servicers relating
                                            to HAMP trial modifications, including extended trial periods, payment issues,
                                            and negative credit reporting, although less so than in earlier years. For example,
                                            in August 2013, a man from Arizona contacted SIGTARP to report that he had
                                            made three timely trial modification payments when his servicer transferred his
                                            mortgage to another servicer. The new servicer did not recognize his modification
                                            agreement and was expecting payment of his full mortgage amount, even though
                                            the previous servicer reported sending modification information to the new
                                            servicer. Another common complaint to SIGTARP by homeowners is that their
                                            trial modification, originally designed to last three months, had been extended for
                                            several more months. According to Treasury, as of December 31, 2013, 20% of
                                            active trial modifications had lasted more than six months. A woman from Arizona
                                            contacted SIGTARP in January 2013 to report that after an application process and
                                            trial modification period that combined lasted for 17 months, she was ultimately
                                            declined for a permanent modification.




                                            BIGGEST SERVICERS DRAW THE MOST SIGTARP
                                            HOTLINE COMPLAINTS
                                            The majority of complaints to SIGTARP concern TARP housing programs,
                                            and the two mortgage servicers with the biggest TARP portfolios were also the
                                            subjects of the most complaints reviewed, Bank of America Corporation (“Bank
                                            of America”) and JP Morgan Chase & Co. (“JP Morgan Chase”). Complaints
                                            against Bank of America and JP Morgan Chase in the following categories were
                                            proportionally greater than among all servicers as a group: complaints related to
                                            lack of communication or misplaced application documents; complaints about
                                            foreclosures and short sales; and complaints about trial modification problems.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014   13




CALIFORNIA AND FLORIDA LEAD NATION IN
SIGTARP HOTLINE COMPLAINTS
While SIGTARP’s Hotline has received taxpayer complaints from all over the
country, a disproportionately large share of complaints in relation to their
population comes from California and Florida. Their outsized share of complaints
is meaningful because California and Florida were two of the states most affected
by the mortgage crisis, with some of the steepest drops in home prices and sharpest
increases in foreclosure rates. The content of the complaints from California
and Florida is similar to that of complaints nationally: lack of communication or
misplaced application documents by servicers; foreclosures and short sales; trial
modification problems including extended trials, payment issues, and negative
credit reporting; and mortgage modification scams. Although SIGTARP has
received complaints from all states, after California and Florida, the largest
numbers of Hotline complaints have come from homeowners in Michigan,
Virginia, Arizona, Maryland, Texas, Illinois, and Ohio.




TREASURY SHOULD MOVE MORE AGGRESSIVELY
TO IMPROVE SERVICER PERFORMANCE
Homeowners continue to complain to SIGTARP about issues with their mortgage
servicers related to the HAMP program and other TARP housing programs.
SIGTARP has made numerous recommendations to Treasury that are designed to
improve servicer performance in HAMP and increase Treasury oversight of HAMP
servicers. Many of those recommendations, dating back to the earliest days of
HAMP, call for Treasury to set meaningful and measurable performance metrics
and goals for servicers, and then to publicly report on servicer performance against
those benchmarks. Treasury has not fully implemented these recommendations,
leaving HAMP and homeowners vulnerable to abuse by servicers.
    With the Administration’s June 13, 2013, extension of HAMP through
December 31, 2015, Treasury has an opportunity to take more aggressive steps to
ensure that all servicers act in accordance with the program rules and the contracts
they signed, for which they are being paid by taxpayers.
    SIGTARP recommended in October 2011 that Treasury use all financial
remedies such as withholding, permanently reducing, and clawing back incentive
payments for servicers who fail to perform at an acceptable level. Treasury rejected
SIGTARP’s recommendation. Although Treasury has told SIGTARP that it believes
remedies enacted against servicers have been appropriate, servicer problems persist.
Treasury has told SIGTARP that it plans to take no further action to implement
this recommendation.
    In May and August 2011, SIGTARP made five recommendations to Treasury
with the goal of improving mortgage servicer compliance. These recommendations
focused on mortgage servicers’ poor treatment of homeowners and serious failures
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            by servicers to follow program rules. SIGTARP recommended that Treasury
                                            establish detailed guidance and internal controls governing how the MHA
                                            Servicer Compliance Assessment is conducted and how each compliance area is
                                            weighted. Treasury has only partially implemented this recommendation. SIGTARP
                                            recommended that Treasury increase the detail and quality of MHA Compliance
                                            Committee meeting minutes; SIGTARP recommended that Treasury require that
                                            servicer communications to homeowners relating to changes in the status or terms
                                            of a homeowner’s modification application, trial or permanent modification, HAFA
                                            agreement, or any other significant change, be in writing; SIGTARP recommended
                                            that Treasury establish benchmarks and goals for acceptable program performance
                                            for servicers, including length of trial modifications, conversion rates from trial
                                            to permanent modifications, length of time to resolve escalated homeowner
                                            complaints, and the percentage of required modification status reports that are
                                            missing; and SIGTARP recommended that Treasury publicly assess the top 10
                                            MHA servicers’ program performance against acceptable performance benchmarks
                                            in these same areas. Treasury has not implemented these four recommendations.
                                                In June 2012, SIGTARP made four recommendations to Treasury relating to
                                            mortgage servicers. Again, homeowners were continuing to experience challenges
                                            accessing HAMP. SIGTARP recommended that Treasury should stop allowing
                                            servicers to add a risk premium to Freddie Mac’s discount rate in HAMP’s present
                                            value test; SIGTARP recommended that Treasury require servicers to use accurate
                                            information when evaluating net present value test results for homeowners
                                            applying to HAMP, that servicers be required to maintain documentation of
                                            all net present value inputs, and that Treasury should permanently withhold
                                            incentives from servicers that do not; SIGTARP recommended that Treasury
                                            require servicers to improve communication with homeowners regarding a denial
                                            of HAMP modification and to withhold incentives from servicers that do not
                                            follow these requirements; and SIGTARP recommended that Treasury require that
                                            Making Home Affordable Compliance Committee meeting minutes capture more
                                            detail regarding the substance of servicer compliance, specifically listing specific
                                            problems encountered by servicers, remedial options discussed, and requisite
                                            actions taken to remedy the situation. Treasury has not implemented these
                                            recommendations.
                                                Continued calls to SIGTARP’s Hotline about foreclosures, in addition to the
                                            constant stream of complaints about servicers, have raised SIGTARP’s concerns.
                                            SIGTARP made a recommendation to Treasury on April 1, 2013, that Treasury
                                            ensure that homeowners in HAMP get sustainable relief from foreclosure by
                                            researching and analyzing whether and to what extent the conduct of HAMP
                                            mortgage servicers may contribute to homeowners redefaulting on HAMP
                                            permanent mortgage modifications, and that Treasury provide transparency and
                                            accountability by publishing its conclusions and determinations. Treasury has
                                            not fully implemented this recommendation. It is imperative that Treasury better
                                            understand the factors affecting the ability of homeowners to remain in HAMP,
                                            particularly where Treasury can exercise control and oversight and, once that
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 29, 2014           15




research and analysis has been completed, that it publish the results.
    After investigating mortgage modification scams, SIGTARP created a joint task
force with the Consumer Financial Protection Bureau and Treasury to leverage
                                                                                           SIGTARP’s Consumer Fraud Alert and
resources in investigating, combating, and shutting down mortgage modification             its Armed Services Mortgage Fraud Alert
scams related to HAMP and to provide awareness to at-risk homeowners. The                  are reproduced inside the back cover of
Task Force has issued two fraud alerts: (1) an alert to educate homeowners on              this report.
how to recognize and avoid these scams and (2) an alert specifically to warn
members of the Armed Services community. Treasury has also worked with
SIGTARP to identify websites bearing the hallmarks of these scams. In an
effort to make sure these warnings reached vulnerable homeowners, SIGTARP
made a recommendation to Treasury in April 2012, as Treasury announced an
expansion of HAMP to include a second tier of qualifying homeowners. SIGTARP
recommended that Treasury: a) require that servicers provide the SIGTARP/CFPB/
Treasury Joint Task Force Consumer Fraud Alert to all HAMP-eligible borrowers
as part of their monthly mortgage statement until the expiration of the application
period for HAMP, and b) undertake a sustained public service campaign as soon
as possible both to reach additional borrowers who could potentially be helped by
HAMP Tier 2 and to arm the public with complete, accurate information about the
program to avoid confusion and delay, and to prevent fraud and abuse. Treasury has
not implemented this recommendation. It is important that Treasury educate as
many homeowners as possible with accurate information about HAMP in an effort
to prevent homeowners from being victims of mortgage modification fraud.
    SIGTARP’s analysis of complaints reveals that more needs to be done to address
the continuing problems facing homeowners. Without Treasury requiring greater
accountability of servicers and servicer-related improvements, homeowners are
likely to continue feeling the frustrations of dealing with TARP housing programs.
16           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     1.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 9/4/2013.
SIGTARP HOTLINE
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




PRESS INQUIRIES
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




LEGISLATIVE AFFAIRS
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




OBTAINING COPIES OF TESTIMONY AND REPORTS
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
